           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



 THE SOCIAL SECURITY ADMINISTRATION’S
      ACCOUNTABILITY OF FEDERAL
   EMERGENCY MANAGEMENT AGENCY
    FUNDS PROVIDED FOR HURRICANE
            RELIEF EFFORTS


   March 2007         A-06-06-26138




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                       SOCIAL SECURITY
MEMORANDUM

Date:      March 23, 2007                                                        Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   The Social Security Administration’s Accountability of Federal Emergency Management
           Agency Funds Provided for Hurricane Relief Efforts (A-06-06-26138)


           OBJECTIVE

           Our objectives were to evaluate the effectiveness of the Social Security Administration’s
           (SSA) internal control procedures and accountability of funds provided by Federal
           Emergency Management Agency (FEMA) in response to the 2005 Gulf Coast
           Hurricanes Katrina, Rita, and Wilma.

           BACKGROUND
           In the aftermath of Hurricanes Katrina, Rita and Wilma, there was an urgent need
           to provide service to the public and provide assistance in the hurricane recovery efforts.
           As part of its role to effectively manage Federal response and recovery efforts following
           any national incident, FEMA, which is part of the Department of Homeland Security, is
           authorized to use Mission Assignments. FEMA uses Mission Assignments to provide
           immediate, short-term emergency response assistance to meet the urgent needs of a
           State by directing other Federal agencies to complete specific tasks in preparation for,
           or in response to, a Presidential declaration.

           FEMA authorized $1 million to SSA for costs associated with its Mission Assignment to
           provide volunteer staff to assist existing FEMA teams in response to relief efforts. This
           Mission Assignment provided reimbursement for travel, per diem, and overtime costs for
           volunteers. As of May 10, 2006, SSA had been reimbursed $817,509 for 58 employees
           who reported for FEMA assignments.

           Congress and the public raised concerns about the oversight and management of
           Federal funds provided for hurricane relief efforts. To identify possible areas of fraud,
           waste, abuse or mismanagement, the Department of Homeland Security, Office of
           Inspector General requested Inspectors General review the accountability of Mission
           Assignment funds within their respective agencies.
Page 2 – The Commissioner

RESULTS OF REVIEW
Our review of the $817,509 for 58 employees who reported for FEMA assignments
disclosed that costs charged were generally allowable and accurate; however, we did
find costs related to travel and salary that contained minor errors totaling approximately
0.1 percent of SSA’s reimbursement from FEMA (see Appendix C). The total amount
reimbursed for travel was $400,330, and the total cost reimbursed for salary was
$417,179.

                   Travel and Salary Expense Reimbursed by FEMA
                                     (Total $817,509)




                                                           $417,179
                       $400,330




                                  Travel          Salary


We provided SSA with a list of questionable transactions for follow-up review to ensure
that amounts paid to volunteers and reimbursements claimed from FEMA were
accurate. SSA has acted to resolve the identified discrepancies. Specifically, for travel
costs we found transactions that did not have required receipts for reimbursement
totaling $2,947; improper claims for travel costs totaling $1,841; and allowable travel
costs totaling $469 that were not reimbursed to employees.

Our review of salary costs, noted minor errors and inadequate time and attendance
documentation for 39 of the 58 employees who participated in FEMA Mission
Assignments. This occurred because employee volunteers did not receive training on
travel and timekeeping requirements before going on assignment and SSA did not have
an adequate review process to ensure that documentation was submitted as required.
SSA agreed that volunteers were not provided training in the travel and timekeeping
process before being deployed. We also found that SSA charged the wrong account
for some costs and inadvertently excluded $4,050 in claims for reimbursement from
FEMA. In addition to the 58 employees who volunteered for a Mission Assignment, we
found 1 SSA employee, who was erroneously included in the final request for
Temporary Duty (TDY) overtime reimbursement in the amount of $452. This employee
did not take part in the Mission Assignment volunteer efforts.
Page 3 – The Commissioner

TRAVEL COSTS

We reviewed 114 travel vouchers totaling $400,330 and found that 90 of the vouchers
                                                                              1
did not have any errors. For the remaining 24 vouchers, we noted 30 exceptions as
indicated below:

 5 vouchers totaling $2,947 were not adequately supported with receipts for lodging,
  taxi, laundry, and excess baggage. For example, one individual submitted a
  voucher for 1 month’s travel and claimed $78.40 for laundry service six times on the
  voucher and did not provide receipts.

 22 vouchers containing $1,841 in claims related to expenses for lodging, airfare, and
  car rental were not incurred by the employee. There were several instances where
  the individual requested reimbursement for airfare and lodging tax that were
  eventually credited back to their travel card due to corrections made by the hotel or
  airline. A reimbursement for 1 night of lodging was also made to one individual who
  spent the night in a free FEMA tent.

 3 vouchers totaling $469 in allowable lodging and airfare expenses were not
  reimbursed to the employee. Two of the individuals did not claim lodging expenses
  incurred for a portion of their TDY deployment and one individual did not claim the
  correct amount paid in airfare.

These errors occurred because SSA did not carefully review the travel vouchers and
either did not request, or did not retain, the required receipts from the travelers. Federal
Travel Regulations (FTR) require travelers provide receipts for any lodging expense
(except when authorized at a fixed reduced per diem allowance) and any other expense
exceeding $75. 2 The FTR also states that a travel authorizing/approving official or
his/her designee (e.g., supervisor of the traveler) must review and sign travel claims to
                               3
confirm the authorized travel. The reviewing official is responsible to ensure:

a. The claim is properly prepared in accordance with the pertinent regulations and
   agency procedures;

b. A copy of authorization for travel is provided;

c. The types of expenses claimed are authorized and allowable expenses;

d. The amounts claimed are accurate; and

1
    Five travel vouchers contained multiple errors.
2
  FTR at 41 C.F.R. §301-52.4. Also, receipts must be retained for 6 years and 3 months as prescribed by
the National Archives and Records Administration under General Records Schedule 6, paragraph
1(http://ardor.nara.gov/grs/grs06.html).
3
    FTR at C.F.R. §301-71.200.
Page 4 – The Commissioner

e. The required receipts, statements, and justifications are attached to the travel
          4
   claim.

SALARY COSTS

FEMA reimbursed SSA $417,179 in salary costs for 58 employees who reported for
Mission Assignments. According to SSA staff, FEMA procedures required the
preparation of time and attendance worksheets in disaster field offices for each
employee. These worksheets were to be reviewed and approved by FEMA officials
onsite and faxed to the volunteer’s Agency for processing. According to SSA’s Time
and Attendance Policy Manual, supervisors must certify the hours recorded on
employee timesheets and it is the timekeeper’s responsibility to ensure that time and
attendance rosters are properly completed, reviewed and signed daily. 5 Overtime
attendance rosters shall be retained until after a Government Accountability Office audit
or when 6 years old, whichever occurs first. 6

SSA did not ensure that time and attendance rosters were properly completed and
retained to verify that the hours recorded by timekeepers reflected the employee’s
actual attendance and entitlement to pay. We learned that, because of the geographic
dispersion and movement of volunteers at their TDY locations, it was often difficult for
the volunteers to locate immediate supervisors to ensure all travel and time and
attendance documents were reviewed, approved, and certified timely. Also, it was
difficult to ensure that their timekeepers and supervisors were appropriately informed of
their hours worked while the employees were away from their duty station. We
reviewed employee payroll records for 58 employees and found that records for
33 employees contained errors and the remaining 25 appeared to be accurate. For the
33 employees who had inaccurate records, we noted 51 exceptions 7 as indicated
below:

•    18 of 58 employees’ hours of work documented on timesheets did not agree with
     the number of hours in SSA’s payroll system.

•    15 of 58 employees were missing timesheets or did not have adequate
     documentation to support their payment for overtime.

•    12 of 58 employees’ time and attendance records were not certified by a supervisor
     (certifier).

4
    FTR at C.F.R. §301-71.201.
5
 SSA Time and Attendance Policy and Procedure Guide, Chapter 2, Separation of Responsibilities:
Certifier, Timekeeper, and Employee, pg. 1.
6
 SSA Time and Attendance Policy and Procedure Guide, Chapter 2, Separation of Responsibilities:
Certifier, Timekeeper, and Employee, pg. 7.
7
    Seventeen employees had multiple errors on their payroll record.
Page 5 – The Commissioner

•    6 of 58 employees were not compensated at the correct salary rate.

OTHER ISSUES

SSA inadvertently recorded salary funds to the wrong account which resulted in an
underestimated request to FEMA for billing reimbursements in the amount of $4,050.
To track costs and obtain reimbursement from FEMA, SSA authorized the use of a
designated Common Accounting Number for travel and overtime worked by any
employee who was on a FEMA Mission Assignment. SSA combined the data
forwarded from travel and payroll analysts to create and submit the invoice to FEMA for
reimbursement. The Federal Managers’ Financial Integrity Act requires that each
Agency establish controls that reasonably ensure that: (i) obligations and costs comply
with applicable law; (ii) assets are safeguarded against waste, loss, unauthorized use or
misappropriation; and (iii) revenues and expenditures are properly accounted for and
recorded. 8 We found 13 instances when employee holiday hours worked 9 were
misclassified and charged to the wrong account. Holiday hours worked are a
reimbursable expense through FEMA.

In addition, we found one SSA employee, who was not part of the Mission Assignment
volunteer efforts, who was erroneously included in the final request for TDY overtime
reimbursement in the amount of $452.

CONCLUSION AND RECOMMENDATIONS

Costs charged to FEMA totaling $817,509 for Mission Assignments were generally
allowable and accurate; however, we requested SSA follow up on travel vouchers that
contained errors or did not have required receipts. We also requested a review of
differences found between the time and attendance records and SSA’s payroll system.
Accordingly, we recommend SSA:

1. Ensure SSA staff comply with FTR when processing and reviewing future travel
   reimbursements for FEMA Mission Assignments.

2. Ensure SSA travel coordinators and timekeepers maintain accurate records for staff
   deployed to future FEMA Mission Assignments.

3. Ensure all costs are appropriately tracked and assigned to the proper Common
   Accounting Number.


8
    The Federal Managers’ Financial Integrity Act, Pub. L. 97-255 (September 8, 1982)
9
 SSA Time and Attendance Policy Manual, Chapter 6- Holiday Worked, p. 19. When an employee
comes into work on a holiday, the government pays them the regular hourly rate for holiday hours worked
during their scheduled tours. They also receive their holiday pay for that day. The pay is the equivalent of
double time for the hours that the employee actually works on the holiday. When full-time employees
work outside their regular tour hours on a holiday, it is overtime. They are paid at the usual overtime rate.
Page 6 – The Commissioner

4. Ensure timekeepers, supervisors and staff assigned to future Mission Assignments
   are appropriately trained concerning the travel and timekeeping process.

5. Ensure questionable payroll and travel transactions are reviewed and adjusted
   accordingly.

AGENCY COMMENTS
SSA agreed with our recommendations. See Appendix D for the full text of the
Agency’s comments.




                                              Patrick P. O’Carroll, Jr.
                                      Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Overall Percentage of Error - Chart

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                      Appendix A

Acronyms
FEMA    Federal Emergency Management Agency
FTR     Federal Travel Regulations
ODCHR   Office of the Deputy Commissioner, Human Resources
SSA     Social Security Administration
TDY     Temporary Duty
                                                                 Appendix B

Scope and Methodology
Our objective was to evaluate the effectiveness of the Social Security
Administration’s (SSA) internal control procedures and accountability of funds
provided by the Federal Emergency Management Agency (FEMA) in response to
the 2005 Gulf Coast Hurricanes Katrina, Rita, and Wilma.

To accomplish our objectives, we reviewed all costs incurred through SSA’s
Mission Assignments that were reimbursed by FEMA for overtime, per diem, and
all other travel costs.

In conducting our evaluation, we:

•   Obtained data concerning all SSA costs reimbursed related to FEMA Mission
    Assignments. We requested the Office of the Deputy Commissioner, Human
    Resources (ODCHR) provide copies of travel and payroll related documents
    for employees who participated in this initiative. Specifically, we requested all
    travel vouchers, accompanying receipts, and the following payroll forms:
    copies of the SSA-29 (Overtime Roster) and the SSA-30 (Attendance
    Roster).

•   Identified the number of volunteers deployed on Mission Assignments.

•   Reviewed the Federal Travel Regulations for policies and procedures
    concerning requests for reimbursement.

•   Reviewed SSA’s Time and Attendance policies and procedures concerning
    premium pay (i.e. overtime, holiday pay, and night differential).

•   Reviewed laws and regulations related to the Mission Assignment process.

•   Interviewed personnel in the ODCHR and Office of Finance regarding
    controls and processes used by SSA to implement the Mission Assignments.

•   Made site visits to Baltimore, Maryland.

The entities audited were the Office of Financial Policy and Operations and the
Office of the Deputy Commissioner, Human Resources. Our review of SSA was
conducted from August 2006 to November 2006 in accordance with generally
accepted government auditing standards.
                                                                   Appendix C


                       Overall Percentage of Error



                                  Total
         Reimbursements       Reimbursed by                          Percentage
              Due                 FEMA             Difference        Difference

Travel           $396,011           $400,330              $4,319              1.1%


Salary           $420,777           $417,179             -$3,598              -0.9%

Total*           $816,788           $817,509                $721              0.1%


 * The total amount of reimbursements differed by .1% of the actual amount due, travel
 reimbursements were overpaid by $4,788 and underpaid by $469, and salary
 reimbursements were overpaid by $452 and underpaid by $4,050.
                  Appendix D

Agency Comments
                                       SOCIAL SECURITY

MEMORANDUM



Date:      March 8, 2007                                                      Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye /s/

Subject:   Office of the Inspector General (OIG) Draft Report, "The Social Security Administration’s
           Accountability of Federal Emergency Management Agency Funds Provided for Hurricane Relief
           Efforts" (A-06-06-26138) -- INFORMATION

           We appreciate OIG’s efforts in conducting this review. Our comments on the draft
           report content and recommendations are attached.

           Let me know if we can be of further assistance. Staff inquiries may be directed to
           Candace Skurnik, Director, Audit Management and Liaison Staff, on extension 54636.

           Attachment:
           SSA Respons




                                                    D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "THE SOCIAL SECURITY ADMINISTRATION’S (SSA)
ACCOUNTABILITY OF FEDERAL EMERGENCY MANAGEMENT AGENCY
FUNDS PROVIDED FOR HURRICANE RELIEF EFFORTS" (A-06-06-26138)


Thank you for the opportunity to review and comment on the draft report. We appreciate
your staff’s efforts in evaluating the effectiveness of SSA’s internal control procedures
and accountability of funds provided by Federal Emergency Management Agency
(FEMA) in response to the 2005 Gulf Coast Hurricanes Katrina, Wilma and Rita. We are
very pleased with the results of this review, which showed that the costs charged were
generally allowable and accurate. Our response to the recommendations are provided
below:

Recommendation 1

SSA should ensure staff comply with Federal Travel Regulations (FTR) when processing
and reviewing future travel reimbursements for FEMA Mission Assignments.

Response

We agree. For any future FEMA Mission Assignments, staff in the Division of Travel
Management (DTM) will contact the employee, document preparer and/or travel
authorizing official pre-travel to convey FTR, FEMA and SSA travel policy.

Recommendation 2

SSA should ensure travel coordinators and timekeepers maintain accurate records for
staff deployed to future FEMA Mission Assignments.

Response

We agree. Employees, document preparers and/or the travel authorizing official will be
contacted by DTM staff to remind them of the record retention requirements as prescribed
by the National Archives and Records Administration to maintain receipts for 6 years and
3 months. Should SSA participate in future FEMA Mission Assignments, we will issue
clear guidelines to timekeepers and managers reminding them of their recordkeeping
responsibilities.

Recommendation 3

SSA should ensure all costs are appropriately tracked and assigned to the proper Common
Accounting Number.




                                            D-2
Response

We agree. DTM and Division of Central Accounting and Reporting staff will monitor
and track travel documents and payroll costs to verify that the proper Common
Accounting Number is charged for FEMA reimbursable costs incurred by SSA employees
deployed for FEMA Mission Assignments.

Recommendation 4

SSA should ensure timekeepers, supervisors and staff assigned to future Mission
Assignments are appropriately trained concerning the travel and timekeeping process.

Response

We agree. For travel related processes, DTM staff will monitor travel documents to
determine that travel policy is being followed. Any items of concern noted on travel
documents requiring corrective action will be addressed individually with the employee,
document preparer and/or travel authorizing official. If SSA participates in future FEMA
Mission Assignments, we will issue clear guidelines to employees, timekeepers and
managers providing procedural guidance and reminding them of their recordkeeping
responsibilities for time and attendance. Additionally, we will work closely with FEMA
and request them to reinforce the requirements of the process as part of their preparatory
training of volunteers before the volunteers commence their primary work assignments.

Recommendation 5

SSA should ensure questionable payroll and travel transactions are reviewed and adjusted
accordingly.

Response

We agree. For travel related transactions, DTM staff will monitor travel documents to
determine that travel policy is being followed. Any questionable items requiring
corrective action will be addressed with the employee, document preparer and/or travel
authorizing official. We are also reviewing the questionable payroll items and are
proceeding to make adjustments where necessary.




                                             D-3
                                                                      Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Paul Davila, Director, (214) 767-6317

   Paul Wood, Audit Manager, (214) 767-0058

Acknowledgments
In addition to those named above:

   Erica Turon, Auditor-in-Charge

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification
Number A-06-06-26138.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General

The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.


                                         Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure program
objectives are achieved effectively and efficiently. Financial audits assess whether SSA’s
financial statements fairly present SSA’s financial position, results of operations, and cash flow.
Performance audits review the economy, efficiency, and effectiveness of SSA’s programs and
operations. OA also conducts short-term management and program evaluations and projects on
issues of concern to SSA, Congress, and the general public.

                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.

                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.

                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
